No. 20-288

 

IN THE

SUPREME COURT OF THE UNITED STATES

 

ALCR, LLC,

Petitioner,
vs.

Linda W. Swain and Eileen R. Breslin,

Respondents.

 

CERTIFICATE OF SERVICE
The undersigned certifies that a copy of the Response to Petition for Writ of
Certiorari, Certificate of Compliance, and the Appendix to Response to Petition for
Writ of Certiorari were electronically provided by email this date to:

Daniel D. Maynard
Maynard Cronin Erickson Curran & Reiter, P.L.C.
3200 North Central Avenue, Suite 1800
Phoenix, Arizona 85012
dmaynard@mmcec.com

Dated this 30 day of September 2020.

To afin Utchains yyy
Timothy Hutchins Barnes (#214463)
Timothy H. Barnes, P.C.

428 East Thunderbird Road, #150
Phoenix, Arizona 85022
